Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     HOSPITAL CLOSURE: 1996 





                   JUNFi GIBBS BROWN
                   Inspector  General

                      FEBRUARY      1998
                       OEI-04-97-00110
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department   of Health and Human Services
programs as well as the health and welfare of beneficiaries     served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management         problems and recommends    legislative, regulatory, and
operational  approaches    to correct them.


                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several           components     of the 

Office of Inspector General.     It conducts short-term management         and program 

evaluations (called inspections)    that focus on issues of concern to     the Department,      the 

Congress, and the public. The inspection reports provide findings           and 

recommendations     on the efficiency, vulnerability, and effectiveness      of departmental 

programs. 


The OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. 

Flowers, Regional Inspector General, and Christopher  Koehler, Deputy Regional 

Inspector General.  Principal OEI staff included: 


Region                                                  Headquarters

Ron Kalil, Contractor                                   Tricia Davis, Program Specialist 

Peggy Daniel, Program Analyst                           Linda Moscoe, Technical Support Staff 

Graham Rawsthorn, Program Analyst 

Jackie Watkins, Program Analyst 





To obtain   a copy of this report,   call the Atlanta   Regional   Office at 404-331-4108.

Reports are also available on the World Wide Web at our home page address:
http://www.dhhs.gov/progorg/oei.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     HOSPITAL CLOSURE: 1996 





               4
                   SERVICQ
          .&                 ‘%u.

                                    JUNE GIBBS BROWN
                             9/     Inspector General
                              -       FEBRUARY 1998
                   daad‘               OEI-04-97-00110
               EXECUTIVE                                 SUMMARY
PURPOSE

To describe   extent,   characteristics,   reasons   for, and impact      of hospital   closure   in 1996.

BACKGROUND

The closure of hospitals in past years had generated public and congressional    concern.
We released a report in May 1989 describing the nationwide phenomenon         of hospital
closure in 1987. We issued subsequent annual reports in 1988 through 1995.

The findings from all the OIG studies of hospital closure are similar. The hospitals
that closed were small and had low occupancy rates. When the hospitals closed, few
patients were affected.  Most could get medical care nearby.

FINDINGS

Our inspection of hospital closure in 1996 produced            findings     similar to those
previously reported for 1987-1995.

b	     Thirty-seven general, acute care hospitals closed -- 0.7 percent of all hospitals.
       This is the same number that closed in 1995. Four new general, acute care
       hospitals opened in 1996, and one hospital that had previously closed reopened
       in 1996.

b	     Ten of the closed hospitals were rural and 27 were urban. A higher percentage
       of urban hospitals (1.0%) closed in 1996 than did rural hospitals (0.4%).

b	     Closed hospitals in both rural and urban areas were smaller                  on average    than
       the national averages.

               Rural hospitals that closed had an average of 27 beds as compared                     to an
               average of 73 beds for all rural hospitals nationally.

               Urban hospitals that closed had an average of 110 beds as compared                        to
               an average of 227 beds for all urban hospitals nationally.

b	     Occupancy rates for closed rural and urban hospitals                were lower on average
       than the national averages.

               Rural hospitals that closed had an average occupancy rate of 16.9
               percent as compared to an average of 33.2 percent for all rural hospitals
               nationally.  The average daily census in the year prior to closure was
               about 5 patients.



                                                     i
             Urban hospitals that closed had an average occupancy rate of 34.2
             percent as compared to an average of 48.7 percent for all urban
             hospitals nationally. The average daily census in the year prior to
             closure was about 38 patients.

b	   Medicare    utilization   of closed hospitals   on average   was lower than the national
     average.

             In rural areas, the average Medicare utilization among hospitals that
             closed was 49.2 percent compared to an average of 58 percent for all
             rural hospitals nationally. About two Medicare patients were in the
             hospital on an average day in the year prior to closure.

             In urban areas, the average Medicare utilization among hospitals that
             closed was 46.7 percent compared to an average of 48.4 percent for all
             urban hospitals nationally. About 18 Medicare patients were in the
             hospital on an average day in the year prior to closure.

b	   Medicaid    utilization   of closed hospitals   on average   was lower than the national
     averages.

             In rural areas, the average Medicaid utilization among hospitals that
             closed was 7.4 percent as compared to an average of 11.9 percent for all
             hospitals nationally.

             In urban areas, the average Medicaid utilization among hospitals that
             closed was 11.9 percent as compared to an average of 14 percent for all
             urban hospitals nationally.

b	   No single factor or event caused hospitals to close. Hospitals closed because              of
     the interrelated  factors of declining occupancy, lagging revenues, and rising
     costs. Hospital viability depends on the stability of all three factors. The
     weakening of either one may begin a chain reaction eventually leading to
     hospital closure.

b	   Although residents in a few communities had to travel greater distances for
     hospital care, most had emergency and inpatient medical care available within
     10 miles of a closed hospital.

b	   At the time of our inspection, 27 of the 37 closed hospital facilities were being
     used -- 23 of them (62 percent) for health-related services. Also, plans were
     being made to use 6 of the remaining 10 vacant hospitals for health-related
     services.




                                                ii
                      TABLE                     OFCONTENTS

EXECUTIVESUMMARY                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

     Extent     and Characteristics          of Closed Hospitals                           ......................        3


                How Many Closed             .......................................                                      3


                Where     Were They .......................................                                              4


                What Were They Like ....................................                                                 4


     Reasons      for Hospital       Closure        ....................................                                 7


     Impact      of Hospital      Closure        .....................................                                   8


                How Many Patients             Were Affected                   ..........................                 8


                Are Inpatient Care and Emergency 

                Services Available . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                What Is the Building           Used for Now . . . . . . . . . . . . . . . . . . . . . . . . . 11 


ENDNOTES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


APPENDICES

     Methodology            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l

     Number       of Hospital       Closures       by State           ...........................                     B-l

     Hospital      Closures     by Hospital         Name and Location                           ..................    C-l
                                         INTRODUCTION

PURPOSE

To describe   the extent,               characteristics,                 reasons              for, and impact        of hospital   closure   in
1996.

BACKGROUND

In the past, closure of general, acute care hospitals had generated public and
congressional   concern. Numerous questions had been raised about the impact of
hospital closure in the United States, as well as implications for public policy. A
number of studies predicted that more hospitals would close in coming years.

In response to these concerns, the Office of Inspector General released a report in
May 1989 describing the phenomenon        of hospital closure during 1987 in the United
States. We found that the hospitals that closed were small and their closing did not
severely affect access to care. Many users of our 1987 hospital closure study
encouraged    us to continue year-by-year analyses of the phenomenon     to detect
differences in the rate of hospital closure, and in the characteristics and circumstances
of hospitals that close.

Similar inspections on the phenomenon    of hospital closure in 1988 through 1994
showed a downward trend in the number of closures. In 1995, hospital closures more
than doubled that of the previous year, but were still less than in any other year since
we began this series of reports.
                                                         HOSPITAL                             CLOSURE

                                    #    of       Closures          in    US.
                    100         -




                     80         -                              76

                                         69
                                              7




                                                                          56             67
                     so-




                                                                                                                        37
                     40-




                     20-                                                                                        16




                          O-	       I                        I       I
                                                                                /   I                       I         I
                                    1967          1988       1989    1990           1991                   11994      1996

                                                                                YEAR




                                                                                    1

The findings from the 1987 through 1995 inspections were similar. The hospitals                     that
closed were small and had low occupancy rates. When the hospitals closed, few
patients were affected. Most could get medical care nearby.

SCOPE

We examined    hospitals    that closed in calendar      year 1996.

For purposes   of this study, the following       definitions     were used.

Hospital: A facility that provides     general,     short-term,      acute medical   and surgical
inpatient services.

Closed Hospital: One that stopped providing general, short-term, acute inpatient
services in 1996. If a hospital merged with or was sold to another hospital but the
physical plant continued to provide inpatient acute care, it was not considered a
closure. If a hospital both closed and reopened in 1996, it was not considered a
closure.

METHODOLOGY

To determine    the extent, reasons for, and impact of hospital closure, we obtained
information  from State licensing and certification agencies, State health planning
agencies, State hospital associations, HCFA data bases, officials associated with closed
and nearby hospitals, and local public officials.

We obtained information  on the characteristics of all hospitals and those that closed in
1996 from the Hospital Cost Report Information     System (HCRIS) maintained      by
HCFA.

Appendix   A describes     our methodology    in further        detail.

We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                                    2

                                  FINDINGS 


Our analysis shows that:

b	     Thirty-seven general, short-term, acute care hospitals closed in 1996 -- 0.7
       percent of all hospitals. This is the same number that closed in 1995.

b      Most hospitals   that closed were small and had low occupancy           rates.

b	     Although residents of a few communities had to travel greater distances for
       hospital care, most had emergency and inpatient medical care available within
       10 miles of a closed hospital.


EXTENTAND        CHARACl-‘ERISTICS         OF CLOSED HOSPITALS

How Many Closed

In 1996, there were 4,955 general, short-term, acute care hospitals in the United States
entered on HCFA’s data base as participating      in the Medicare program. Thirty-seven
hospitals closed in 1996 -- 0.7 percent of all hospitals nationally.


                  t

                  i HOSPITALS IN THE U.S.:                    4,955 

                  ~CLOSEDINl996:                                 37 (0.7%) 




Closure of the 37 general,   acute care hospitals   reduced     inpatient   bed supply by 3,235
beds, or 0.4 percent.

While 37 hospitals closed in 1996, 4 new general, acute care hospitals opened, adding
589 beds to the national supply of beds. In addition to the new hospital openings, 1
previously closed hospital reopened in 1996, adding another 18 beds.




                                              3

where Were Z%ey

The closed hospitals were located in 22 States.          California had the greatest number of 

closures (7), followed by Florida (4), and Texas         (4). Three States had two closures 

each, and the remaining 16 States had 1 closure           each. Appendix B lists the number of 

hospital closures by State. Appendix C lists the         closures by hospital name and 

location. 


A higher percentage     of urban hospitals    (1.0%) closed in 1996 than did rural hospitals 

(0.4%). 



                                                    URBAN                RURAL
          HOSPITALS IN THE U.S.:                     &al                  &274
          CLOSED IN 1996:                              27 (1.0%)            10 (0.4%)



What Were the Closed Hospital Like

k: 	    Hospitals that closed in 1996 were small. Almost two-thirds         (65%) of the
hospitals that closed had 100 beds or fewer. The average number             of beds for
hospitals nationwide is 156 beds.


                             SIZE OF CLOSED HOSPITALS
                                                   Number   of Closed Hospitals

             Number      of Beds             Rural            Urban

               0 - 30                          7                   2

              31 - 50                          2                   1
              51 - 100                         1                   11




             201 - 300                         0
             301 >                             0

                  Totals                       10




                                                    4

Both the rural and urban hospitals that closed in 1996 were smaller on average                                          than
the average size of rural and urban general, acute care hospitals nationally.


                                        HOSPITALS                          THAT   CLOSED
                                                WERE                        SMALL

                          -#       of    Beds
               260                                                                      226.7




               200




               160
                          -



               100        -


                 60




                      0   -
                                RURAL               HOSPITALS                 URBAN             HOSPITALS



                                m         National          Avg        m      Closed         Hospital         Avg




Occupancy: Occupancy rates for closed rural and urban hospitals                                             were lower on
average than the national averages.’


                              OCCUPANCY                           RATES                WERE             LOW

              60%         -



                                                                                    46.7%
              60%         -




              40%         -




              30%         -




              20%         -




               10%        -




                O%­
                               RURAL           HOSPITALS                   URBAN        HOSPITALS



                               m         National         Avg     m        Closed       Hospital        Avg




                                                                  5

Medicare Utilization: In both rural and urban areas, the average Medicare utilization
among hospitals that closed was lower on average than the national averages.2

                                  MEDICARE                     UTILIZA-I-ION
                   70%    -



                   60%    -



                   60%    -



                   40%    -



                   30%    -



                   20%    -



                   10%    -



                    O%­
                              RURAL         HOSPITALS            URBAN     HOSPITALS



                              m       National      Avg    B     Clorred   Hospital    Avg




Medicaid Utilization: Generally the average Medicaid utilization among rural 

hospitals that closed was lower than the national average. There was one exception, 

however.    One of the 10 rural hospitals that closed had an 85 percent Medicaid 

utilization in the year prior to closure. That hospital re-opened in July 1997 after 

extensive renovation.    Excluding the exception, the chart below compares closed 

hospitals to the national averages.    The average Medicaid utilization for the other nine 

rural hospitals that closed was 7.4 percent.    The average Medicaid utilization among 

urban hospitals that closed was lower than the national average.’ 


                                  MEDICAID                     UTILIZATION 

                   20%


                   18%


                   16%


                   14%


                   12%


                   10%


                    8%


                    6%


                    4%


                    2%


                    0%
                              RURAL         HOSPITALS            URBAN     HOSPITALS



                              m       National     Avg     =     Closed    Hospital    Avo




                                                          6

REASONS       FOR HOSPITAL        CLOSURE

As in our previous hospital closure studies, the many health care professionals
interviewed reported no single reason for hospital closure. Hospitals closed because
of the interrelated factors of declining occupancy, lagging revenues, and rising costs.
Hospital viability was said to depend on the stability of all three factors. The
weakening of any one may begin a chain reaction eventually leading to hospital
closure.




                                                   Declining

                  Rising
                  costs


                             L	              Declining
                                             Revenues



Although     the sequence and combination    of these factors were not always the same, 

generally   the scenario was as follows: 


The hospital’s occupancy begins to slide because a doctor leaves town or retires, or 

begins to admit patients to a more modern hospital not far away. Lengths of stay are 

down because of prospective payment pressures and more effective treatment 

methods.   A new ambulatory surgical center has opened and is also drawing patients 

away. 


While occupancy is declining, the hospital’s costs continue to rise. Competition      with 

other hospitals means that new, high technology equipment        is needed.  Nurses and 

technicians are demanding higher salaries - and they are getting them from other 

hospitals nearby. The building may be deteriorating       but the hospital has not been 

able to fully fund its capital reserves for several years. 



                                              7

On the other hand, patient care revenue is down because of lower occupancy and
more uninsured or inadequately     insured patients. For those who do have coverage,
either public or private, insurers are holding down their costs and further eroding the
hospital’s dwindling resources.

Soon the hospital administrator               is unable to manage the situation, and the Board
examines its options: continue               to go deeper into debt; sell the hospital; merge with
another; or close.

The smaller the hospital, the less able it is to resist this downward spiral. As noted
earlier, the average size of the 37 hospitals that closed in 1996 was only 27 beds for
rural hospitals and 110 beds for urban hospitals.     They are considerably smaller than
the national averages.

IMPACT OF HOSPITAL CLOSURE

In communities         where     hospitals    closed in 1996, we determined          the

b       number     of patients        affected   by closure      of hospitals,

b       availability     of inpatient        care and emergency        medical   services,   and

b       current   use of closed hospital           facilities.

How Many Patients Were Afected

For rural hospitals that closed in 1996, the average daily census in the year prior to
closure was about 5 patients.   The urban hospitals that closed had an average daily
census of about 38 patients.



                                WHEN HOSPITALS CLOSED, 

                           HOW MANY PATIENTS WEB  AFFEiCI’FD? 


                                                                  Rural Hospitals              Urban    Hospitals

    Average   Number           of Beds                                   27.4                          109.7

    Average   Occupancy           Rate                                 x 16.9%                         x 34.2%

    Average   Number           of Patients                                 4.6                          37.5

We analyzed Medicare utilization data to determine the number of elderly patients 

affected by hospital closure in 1996. In rural hospitals that closed, about two 

Medicare patients were in the hospital on an average day in the year prior to closure. 

In the urban hospitals that closed, about 18 Medicare patients were in the hospital on 

an average day. 




                                                           8

                       WHEN HOSPITALS CLOSED,
              HOW MANY MEDICARE PATIENTS WEXE AJ?l?Em?
                                                            Rural Hospitals              Urban    Hospitals
   Average   Patient    Census                                        4.6                          37.5
   Average   Medicare     Utilization     Rate                    x 49.2%                        x 46.7%
   Average   Number      Medicare       Patients                      2.3                          17.5



Are Inpatient Care And Emergency Services Available

We assessed availability of inpatient and emergency medical care in miles from a
closed hospital to the nearest inpatient and emergency facilities.

Inpatient Care: In most communities                where a hospital    closed in 1996, inpatient
hospital care was available nearby.




                                                              NUMBER OF CLOSED
                                                                  HOSPITALS
              DISTANCE                                        Rural             Urban
              Within 3 Miles                                  0                 18 (67%)
              4-10 Miles                                    1 3 (30%)         1 8 (29%)
                                                            I                 I
              1l-20 Miles                                     1 (10%)           0
              21-30 Miles                                     2 (20%)            1(4%)
              More than 30 Miles                            1 4 (40%)         1 0
                                         Totals               10 (100%)         27 (100%)

Rural Areas: Residents    in 6 of the 10 rural communities   (60 percent) where a hospital
closed could get inpatient hospital care within 30 miles of the closed hospital.
Residents of White Sulphur Springs, Montana and Big Sandy, Montana had to travel
42 and 35 miles respectively for fuZZ service inpatient hospital care. However, these
frontier communities   converted their closed hospitals into Medical Assistance Facilities
(MAF). These MAF facilities provide up to four days of limited inpatient services.




                                                       9

The remaining 2 rural communities    where residents       had to travel more than 30 miles
for inpatient care are:

        Ozona, Texas                       34 miles
        Monument   Valley, Utah            90 miles



Urban Areas: In 26 of the 27 urban communities      (96%) where a hospital closed in
1996, residents could get inpatient hospital care within 10 miles of the closed hospital.
Fifteen of the 27 urban communities    (55 percent) where a hospital closed could get
inpatient care in the same community.

Emergency Services: When a hospital closed, the community             lost not only inpatient
beds, but also 24-hour emergency services.

Rural Areas: In 8 of the 10 rural communities   (80 percent) where a hospital closed in
1996, emergency care facilities were available within 20 miles of the closed hospital.
Residents of Monument     Valley, Utah had to travel 23 miles for 24-hour emergency
care and residents of Spring Valley, Minnesota had to travel 27 miles for 24-hour
emergency care.

Urban Areas: In all 27 urban communities      where a hospital closed in 1996, emergency
care facilities were available within 10 miles of the closed hospital. Seventeen of the
27 urban communities     (63 percent) where a hospital closed could get emergency
services in the same town.




                                                              NUMBER OF CLOSED
                                                                  HOSPITALS

  II DISTANCE                                          I      Rural        I    Urban           II
  II Within 3 Miles                                    I      4 (40%)      1     21 (7mq        11

  II 4-10 Miles                                        I      3 (30%)       1    6 (22%)        11

  II 1l-20 Miles                                       I 1W%> I                  0              II
       21-30 Miles                                            2 (20%)            0
       More than 30 Miles                                     0                  0

  II                        Totals                     1     10 (100%)     1     27 (100%)      11




                                            10 

What Is the Building Used For Now

At the time of our inspection, 27 of the 37 closed hospital facilities were being used --
23 of them (62 percent) for health-related  services. For example:

       Monument    Valley Hospital in Monument Valley, Utah and Crockett                   County
       Hospital in Ozona, Texas became rural health clinics.

       Bess Kaiser Medical Center in Portland, Oregon and St. Mary’s Hospital                  in
       Galveston, Texas became day surgery and outpatient clinics.

       Community Memorial Hospital in Spring Valley, Minnesota                and Bruce Hospital
       in Bruce, Mississippi are now nursing homes.

       Decatur     Hospital   in Decatur,   Georgia   was converted    to a long-term     acute care
       hospital.

       Doctors     Hospital of Santa Ana in Santa Ana, California and Buena Park
       Medical     Center in Buena Park, California became specialty hospitals.

       Enid Regional Hospital        in Enid, Oklahoma     is now a home health         agency and
       rehabilitation center.

       Genesys Regional Medical Center           - Wheelock   Campus     in Goodrich,     Michigan
       now provides hospice services.

       Mountainview     Medical Center in White Sulphur Springs, Montana and Big
       Sandy Medical Center in Big Sandy, Montana were converted to a HCFA
       sponsored Medical Assistance Facility. In addition to providing limited
       inpatient care, it provides 24-hour emergency services and outpatient   care.
       (The Office of Inspector General released a report on Medical Assistance
       Facilities (OEI-04-92-00731)   in July 1993.)

At the time of our review, community officials were planning to use 6 of the 10 

remaining vacant hospitals for health-related services. For example, Lamar 

Community Hospital in Vernon, Alabama will be converted to an assisted living facility 

and Winsted Memorial Hospital in Winsted, Connecticut      will become a day surgery 

and outpatient clinic. 





                                                  11 

                                           ENDNOTES 


1. 	   Hospital occupancy rate is defined as the actual number of patient days divided
       by the total bed days available.   National average occupancy rate is defined as
       the sum of all hospitals’ occupancy rates, divided by the number of hospitals.

2. 	   Average Medicare utilization of closed rural and urban hospitals is defined as
       the percent of Medicare patient days compared to the total patient days for
       each hospital, summed and divided by the number of hospitals.      National
       average Medicare utilization is the percent of Medicare utilization of each
       hospital, summed and divided by the total number of hospitals.

3.     Medicaid   utilization   is calculated   in the same way as Medicare   utilization.




                                                  12 

                                    APPENDIX                        A

                                           METHODOLOGY

Extent of Hospital Closure

To determine how many hospitals closed in 1996, we surveyed State licensing and 

certification agencies, State hospital associations, and State health planning agencies. 

We also compiled Health Care Financing Administration         (HCFA) data on terminated 

providers in 1996. When a closed hospital met the study’s definition or when there 

were questions, we contacted officials associated with the closed hospitals, officials 

associated with hospitals nearest to the closed hospital, and local public officials. 


To determine the number of hospitals in the United States, we used the Hospital Cost 

Report Information   System (HCRIS) maintained by HCFA. We included only 

general, short-term, acute care hospitals under Medicare’s Prospective Payment 

System (PPS) in the universe.    There were 4,955 hospitals listed on HCRIS as short-

term, acute care, general hospitals for the twelfth year of PPS (PPS 12). 


Character&x       of Hospitul Closure

To analyze characteristics  of closed hospitals, we used HCRIS data. Cost reports were
not available for 3 of the 37 hospitals.  For the remaining 34 hospitals, we used the
latest pre-closure cost reports.  For example, if a hospital closed in May 1996 and its
accounting year was on a January-December        cycle, we used the provider’s January 1,
1995 to December     31, 1995 report.

Reasons for and Impact of Hospital Closure

We limited our “impact” analysis to the distance from a closed hospital to the nearest
still-operating hospitals and to emergency services. In addition to the HCRIS, we
obtained data for our analysis from interviews with the following sources.

b      Former     hospital   administrators,      board members,        and/or   staff of closed hospitals

b      Hospital    administrators       and/or   staff at the nearest    hospitals

b      Local police, health,        and government      officials

b      State health     planning     agencies

b      State certification    and licensing      agencies

b      State hospital    associations



                                                    A -1 

                                                                                                                                                                                                                                                          APPENDIX                                                                                                                                                                                                                                 B

,.. . . . . . ..‘.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~.:.::::~~~~~~~~~~~~~~~~~~~~~~.:~                                         ,:((,                                                          :: :,:,:;      .:.:(.:.:.~.‘.:.:.:.:.~.~.~.~.~.~.~.~.~.:.~.                              :.:,:,~:.::::~:.‘.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~~:.~:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:~:.~~:.~~~~~~~~~~~~~~~~~~~~.~~~~~~~~,.,.,.,.                                                                                                                                                                                                     ,...,..      ,....     ........................................................
,..A.... i...                                                    .. . .,.,.,.,.,...,..      ._,.,.,.,.,.,.,.,.,.,.
 . . ..i_ :.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.,.:                   .,.,.,.(.(...,...___.,.~.~.,.,.,.,.,.,.,
,....i..                                                                   .(.,.,.,.,.,.,......          ._._.,.,.,.,.,.,, ~~~~~~~:~~~~~~~~~~~~
‘.‘.““):.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:                         .,.,.,.,.,.,.,.,....:.~.,.,.,.,.,.,.,.,.
,....i.                                                                                 .,.,\....        ,,.,.,.,.,.,.,.
           ~‘~~‘~“““““~~“::::“.‘:‘:“~~.~.‘.                                                                                               .‘.    .‘:‘:‘-:::.....:.:.:.:::.:.:.:::.:.:.:.:.:.:::.:.:.:.:.:.:.:.:.:.;.:.:.~:.:.:.~.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.::~:.:.:.:.:                                                                                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .:.:.:.:.: .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ........ .... .... .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ..~.......~................~.~.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ~:,::
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          . . .._)‘.~.):.:.:.:.:.:.:.:.:.~.~.~.~.~.~.~.~.~.~.~.~.~.:.~.:.:.:
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 ,:.:.::::::::::::::::::::::::
‘:‘:‘:‘:    : : : : : : : : : : : :.:.-:.:.::::::
‘,‘,‘,‘,‘.~.~.~.‘.~.‘,‘:‘:‘:‘:‘.
“~~~~~~“““‘~‘~~“~“~““““““‘~‘~~~“””””””~’-”~”””’                              ““”
                                               ,A.... . . . . . . . . . . . ,.,.,.,.... ““‘...
                                                                                          . . . . . . . _L......................     ..I                .‘.“’ (.‘.‘.‘.. . . (,. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . :.:.: ..(.,.....,.....,.,...........,.,...............................,..
                                                                                                                                                                                                                                                                                                      ...\                                                                              ......                                                                                                                      ..,,,, _,,.,,,,,,                                                                                                                                                      ,,,,,.                                                       ~.~.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,.,~,~~~,~ :,:,:,:,
                                                                                                                                                                                                                                                                                                                                                                               :.:,~:,: . . . . . . :.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:,~,~,~,~,~.~.~.~                                                              ;,.~‘~‘,.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~~~~~.~                                                                                              :,.m                                                  :::::::::::::::::::::::::                                    ::
“‘.....““““.‘.......................’                                                   . ,,..“““““““““:“‘.‘...............................
                                                                                            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .._...__....................................................~....,~,,,,,,,,,,,,,,,,,,,,,,,,,,,,,,,,,,,.
                                                                                                                                                                                                                                                                                                                         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...
:::::::::~:::::j:::::::::::::::::::::::::::::::::.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.;..                                         :.. :.> . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .



                                                                                                                  State                                                                                                                                                                                   Total Closures                                                                                                                                                              Rural Closures                                                                                                                                                             Urban                                                            Closures
         California
         Florida
         Texas
         Michigan
         Montana
         New York
         Alabama
          Connecticut
         Delaware
          Georgia
          Illinois
         Louisiana
          Massachusetts
          Minnesota
          Mississippi
          North Dakota
          Ohio
          Oklahoma
          Oregon
         South Dakota
          Utah
          Wisconsin

          22 States                                                                                                                                                                                                                                                                                                     37 Closures                                                                                                                                                                                10 Rural                                                                                                                                                                 27 Urban




                                                                                                                                                                                                                                                                                                                                                                             B-l
                                    APPENDIX                 C
                                                                       .!i’i‘i”“:::::::::::::::::::::::.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.

                                                                       ~~~~

                                                                       :::::::::::::::::::::.:.:.~:.:.~                      ..,.(.(.....




                                                                                                                                            Rural/
Hospital   Name                              City                           State                                                           Urban

Lamar Community Hospital                     Vernon                     AL                                                                  rural
Sierra Community Hospital                    Fresno                     CA                                                                  urban
Doctors Hospital of Santa Ana                Santa Ana                  CA                                                                  urban
Buena Park Medical Center                    Buena Park                 CA                                                                  urban
Visalia Community Hospital                   Visalia                    CA                                                                  urban
Tustin Hospital                              Tustin                     CA                                                                  urban
Desert Palms Community Hospital              Palmdale                   CA                                                                  urban
Lakeside Hospital                            Perris                     CA                                                                  rural
Winsted Memorial Hospital                    Winsted                    CT                                                                  urban
Riverside Hospital                           Wilmington                 DE                                                                  urban
Seminole Hospital and Women’s Center         Seminole                   FL                                                                  urban
Pinellas Community Hospital                  Pinellas Park              FL                                                                  urban
Palm Beach Hospital                          Lake Worth                 FL                                                                  urban
Riverside Hospital                           Jacksonville               FL                                                                  urban
Decatur Hospital                             Decatur                    GA                                                                  urban
Saint Cabrini Hospital                       Chicago                    IL                                                                  urban
Elmwood Medical Center                       Jefferson                  LA                                                                  urban
Providence Hospital                          Holyoke                    MA                                                                  urban
Yale Community Hospital                      Yale                       MI                                                                  urban
Genesys Regional Med Ctr-Wheelock   Campus   Goodrich                   MI                                                                  urban
Community Memorial Hospital                  Spring Valley              MN                                                                  rural
Bruce Hospital                               Bruce                      MS                                                                  rural
Mountainview    Memorial Hospital            White Sulphur   Springs    MT                                                                  rural
Big Sandy Medical Center                     Big Sandy                  MT                                                                  rural
Heartland Medical Center                     Fargo                      ND                                                                  urban
Little Neck Community Hospital               Little Neck                NY                                                                  urban
Wyckoff Heights Med Ctr-Jackson Heights      Queens                     NY                                                                  urban
St. Joseph Riverside Hospital                Warren                     OH                                                                  urban
Enid Regional Hospital                       Enid                       OK                                                                  urban
Bess Kaiser Medical Center                   Portland                   OR                                                                  urban
Belle Fourche Health Care Center             Belle Fourche              SD                                                                  rural
Crockett County Hospital and Care Center     Ozona                      TX                                                                  rural
Garza Memorial Hospital                      Post                       TX                                                                  rural
St. Mary’s Hospital                          Galveston                  TX                                                                  urban
Physicians Regional Hospital                 Wylie                      TX                                                                  urban
Monument     Valley Hospital                 Monument                   UT                                                                  rural
Kaukauna Community Hospital                  Kaukauna                   WI                                                                  urban




                                             C-l
